State v, Wilson, — S,E.2d -— (2020)

AFP 1-

2020 WL 543423
Only the Westlaw citation is currently available.
Court of Appeals of North Carolina.
STATE of North Carolina
v.
Reginald Tremaine WILSON
No. COA19-184
Filed: February 4, 2020
Appeal by Defendant from Judgments entered 24 May 2018
by Judge Gary M. Gavenus in Buncombe County Superior
Court. Heard in the Court of Appeals 5 September 2019.
Buncombe County, Nos. 17 CRS 88785-86; 18 CRS 101
Attorneys and Law Firms
Attorney General Joshua H. Stein, by Special Deputy'
Attorney General Patrick S. Wooten, for the State.
Law Office of Kellie Mannette, PLLC, by Kellie Mannette,
Chapel Hill, for defendant-appellant.

HAMPSON, Judge.

Factual and Procedural Background
*1 Reginald Tremaine Wilson (Defendant) appeals from
his convictions for Possession with Intent to Sell or Deliver
Cocaine (PWISD Cocaine), Felony Possession of Cocaine,
and attaining Habitual-Felon status. The evidence presented
at trial and Record before us tend to show the following:
On 3 August 2017, while patrolling on Old IJ.S. 70 in
Buncombe County, Officer Joseph. Moore of the Black
Mountain Police Department (Officer Moore) observed a car
driven by Defendant heading in the opposite direction. Officer
Moore recognized Defendant and knew Defendant’s driver’s
license was suspended. Officer Moore turned his patrol car
around and activated his emergency equipment to begin a
traffic stop of Defendant’s vehicle. Rather than stop or slow
down, Defendant accelerated away from Officer Moore and
then turned off the road onto another street. Officer Moore
continued his pursuit, and Defendant pulled into a parking lot
of an apartment complex and parked his car. An unoccupied
car was parked in the parking spot to the immediate left of
Defendant’s vehicle. Upon stopping. Defendant got out of

'6STLAW

his car. Officer Moore testified that in his experience it was
very unusual for someone to get out of their vehicle when
stopped for a traffic stop. Officer Moore testified a driver will
normally Stop quickly and remain in the vehicle.
As Defendant was getting out of his car, Officer Moore
parked behind Defendant’s car, got out of his vehicle, and
ordered Defendant to return to his car; however, Defendant
refused. Officer Moore attempted to approach Defendant,
but Defendant moved around to the front of the other
unoccupied parked car. Officer Moore repeated his command
for Defendant to return to his car, and Defendant again
refused. Officer Moore and Defendant briefly continued to
argue back and forth about Defendant returning to his car.
Defendant then began ducking down in front of the other
unoccupied car.
Atone point. Defendant stood up and stuck both hands into his
waistband. Officer Moore unholstered his firearm and ordered
Defendant to show his hands. Instead. Defendant “ducked
to where [Officer Moore] couldn’t see [Defendant] or his
hands in front of a parked vehicle that he was in front of.”
Officer Moore testified, “[Defendant] eventually stood up and
continued to argue, and then began to comply and walk back
to the driver door of his vehicle.” Officer Moore then tried to
handcuff Defendant. However, after Officer Moore got one
of Defendant’s hands behind his back. Defendant refused to
provide his other hand, resulting in a “tussle” between the
two. At this point. Officer Moore’s partner arrived and helped
with detaining Defendant.
Officer Moore placed Defendant in the back of his patrol car
and relumed to Defendant’s vehicle. Officer Moore “observed
on the driver’s seat a clear plastic baggie. Looked like a comer
bag with an off-white, yellow substance in it.” While Officer
Moore continued searching Defendant’s vehicle, the owner of
the other unoccupied parked car came out of her apartment
and asked Officer Moore if she could leave to go to work,
which Officer Moore allow'ed. After the owner of the other
parked car left. Officer Moore’s partner pointed out “there
was a large bag containing an off-white substance that was
underneath” where the other car had been parked. Officer
Moore testified this large bag was found near the front of
where that car had been parked and where Defendant had been
ducking down.
*2 At Defendant’s trial, Elizabeth Reagan (Agent Reagan), a
Special Agent and Forensic Chemist with the North Carolina
State Crime Laboratory, testified as an expert witness in

?tK'0 1 horns or >

AWEADl* A

State v. Wilson, — S.E.2d —- (2020)

-APP 2-

forensic chemistry. Agent Reagan analyzed and weighed the
contents of the two baggies. According to Agent Reagan, the
corner bag contained .34 grams, plus or minus .02 grams, of
cocaine base; whereas, the larger bag contained 11.19 grams,
plus or minus .02 grams, of cocaine base. Both bags were
admitted into evidence. Officer Moore also testified, based on
his training and experience, a bag containing less than half a
gram of cocaine is “a small amount, personal use amount.”
In his own testimony, Defendant denied possessing any illegal
substances on 3 August 2017. Defendant testified he was
driving to his brother’s residence and did not see any police
vehicle until after he had already turned into his brother’s
apartment complex and gotten out of his car. Defendant
denied ducking in front of the other vehicle and admitted only
that he possessed a bottle of gin and that he had been drinking.
On 8 January 2018, Defendant was indicted on charges of
PWISD Cocaine, Felony Possession of Cocaine, Maintaining
a Vehicle or Dwelling.Place for Keeping or Selling Cocaine.
Driving While Driver’s License Revoked, Resisting a Public
Officer, and attaining Habitual-Felon status. Prior to trial,
the State dismissed the charges of Maintaining a Vehicle
or Dwelling Place for Keeping or Selling Cocaine. Driving
While Driver’s License Revoked, and Resisting a Public
Officer.
Defendant’s trial in Buncombe County Superior Court began
on 22 May 2018. At the close of the State’s evidence,
Defendant, acting pro se, requested “all cases, cause, claim
and/or charges be dissolved, dismiss, quash.” Interpreting
this request as a motion to dismiss for insufficiency of the
evidence, the trial court denied the motion. At the close of
Defendant’s evidence and again prior to final judgment being
entered, Defendant requested dismissal of his case. In each
instance, the trial court interpreted Defendant’s arguments as
a motion to dismiss for insufficiency of the evidence and
denied Defendant’s motions.
On 23 May 2018, the juiy returned verdicts finding
Defendant guilty of PWISD Cocaine, Felony Possession
of Cocaine, and, subsequently, attaining Habitual-Felon
status. The following day, the trial court entered Judgments
against Defendant, sentencing him as a prior-record level
IV to active, consecutive sentences of 97 to 129 months’
imprisonment for the PWISD-Cocaine conviction and 38
to 58 months’ imprisonment for the Felony-Possession-ofCocaine conviction.1 Defendant gave Notice of Appeal in
open court.

issue
The sole issue on appeal is whether there was sufficient
evidence of an intent to sell or deliver cocaine to support
lire trial court’s denial of Defendant’s motions to dismiss the
PWISD-Cocaine charge.

Analysis

1. Standard of Review
“This Court reviews the trial court’s denial of a motion to
dismiss de novo." State v. Smith, I 86 N.C. App. 57, 62, 650
S.E.2d 29, 33 (2007) (citation omitted). “Upon defendant’s
motion for dismissal, the question for the Court is whether
there is substantial evidence (I) of each essential element of
the offense charged, or of a lesser offense included therein,
and (2) of defendant’s being the perpetrator of such offense.
If so, the motion is properly denied.” State v. Fritsch, 351
N.C. 373, 378, 526 S.E.2d 451, 455 (2000) (citation and
quotation marks omitted); State v. Brown, 310 N.C. 563,
566, 313 S.E.2.d 585, 587 (1984) (“Substantial evidence is
such relevant evidence as a reasonable mind might accept as
adequate to support a conclusion.” (citation omitted)). “If the
evidence is sufficient only to raise a suspicion or conjecture
as to either the commission of the offense or the identity of
the defendant as the perpetrator of it, the motion [to dismiss]
should be allowed." Fritsch, 351 N.C. at 378, 526 S.E.2d
at 455 (citation and quotation marks omitted). “In making
its determination, the trial court must consider all evidence
admitted, whether competent or incompetent, in the light most
favorable to the State, giving the State the benefit of every
reasonable inference and resolving any contradictions in its
favor.” State v. Rose, 339 N.C. 172, 192, 451 S.E.2d 211,223
(1994) (citation omitted). However, “[wjhether the State has
offered such substantial evidence is a question of law for the
trial court.” Slate v. McKinney, 288 N.C. 113,119,215 S.E.2d
578, 583 (1975) (citations omitted).

II. Motion to Dismiss
*3 Defendant contends the trial court erred in denying his
motions to dismiss the charge of PWISD Cocaine. “The
offense of possession with intent to sell or deliver has the

WESTLAW © 2020 Tftonson Reuters Nc <;©«•! tc. o-v;n T U.

2

State v. Wilson, — S.E.2d —- (2020)

. „-APP 3-_

following three elements: (I) possession of a substance; (2)

to constitute a trafficking offense.” Id. at 106, 612 S.E.2d at

the substance must be a controlled substance; and (3) there

176. Possession of cocaine rises to the level of a trafficking

must be intent to sell or distribute the controlled substance.”

offense where the amount possessed is at least 28 grams. See

Slate v. Carr, 145 N.C. App. 335, 341. 549 S.E.2d 897. 901

N.C. Gen. Stat. § 90-95(h)(3) (2019).

(2001) (citations omitted). Specifically. Defendant argues the
State failed to demonstrate the third element—intent. Because

The amount of cocaine at issue in this case is thus less than

Defendant does not challenge the remaining two elements

half of the amount giving rise to a trafficking offense. It is

of this offense, we limit our analysis to whether the State

also less than amounts our courts have previously recognized

■>

as a substantial amount beyond what a typical user would

presented sufficient evidence of intent. i

possess for personal use. See Slate v. Morgan. 329 N.C. 654,
“While intent may be shown by direct evidence, it is often

660, 406 S.E.2d 833, 836 (1991) (an ounce or 28.3 grams);

proven by circumstantial evidence from which it may be

State v. Davis, 160 N.C. App. 693. 696. 586 S.E.2d 804,

inferred.”Slate v. Nettles. 170 N.C. App. 100, 105,612 S.E.2d

806 (2003) (recognizing approximately 20 grams of cocaine

172, 175-76 (2005) (citation omitted). “Although quantity

“far exceeds the amount a typical user would possess for

of the controlled substance alone may suffice to support the

personal use”). However, within the context of our case law, it

inference of an intent to transfer, sell, or deliver, it must be

is not an insubstantial amount and well exceeds amounts that

a substantial amount.” Jd. at 105, 612 S.E.2d at 176 (citation

have previously been recognized as supportive of a PWISD-

and quotation marks omitted). This Court has recognized

Cocaine conviction under appropriate circumstances. See

“the intent to sell or distribute may be inferred from (1) the

State v. Carr, 122 N.C. App. 369, 373, 470 S.E.2d 70, 73

packaging, labeling, and storage of the controlled substance,

(1996) (indicating an intent to sell or deliver cocaine could be

(2) the defendant’s activities, (3) the quantity found, and (4)

inferred from observations of defendant conversing through

the presence of cash or drug paraphernalia." Id. at 106, 612

car windows with known drug users—one of whom was in

S.E.2d at 176 (citations omitted). “Moreover, our case law

possession of a pipe used for smoking crack cocaine—the

demonstrates that this is a fact-specific inquiry in which the

discovery of two pill bottles with nine rocks of crack cocaine

totality of the circumstances in each case must be considered

in the defendant's possession, and the defendant’s attempts

unless the quantity of drugs found is so substantial that this

to disguise his identity when questioned by police); Stale v.

factor—by itsel f—supports an inference of possession with

Alston, 91 N.C. App. 707, 711, 373 S.E.2d 306, 310 (1988)

intent to sell or deliver.” Stale v. Coley. 257 N.C. App. 780,

(finding no error in the defendant’s conviction for possession

788-89, 810 S.E.2d 359, 365 (2018). “In ‘borderline’ or close

with intent to sell where there were 4.27 grams of cocaine in

cases, our courts have consistently expressed a preference

twenty separate envelopes along with large rolls of currency):

for submitting issues to the jury[.]” State v. Hamilton, 11

Stale v. McNeil, 165 N.C. App. 777, 783, 600 S.E.2d 31, 35

N.C. App. 506, 512, 335 S.E.2d 506. 510 (1985) (citations

(2004) (indicating an intent to sell cocaine was established

omitted); see also State v. Everhardt, 96 N.C. App. I, II. 384

where there were 5.5 grams of crack cocaine, individually

S.E.2d 562, 568 (1989) (“If there is more than a scintilla of

packaged in twenty-two pieces, placed in the corner of a

competent evidence to support allegations in the warrant or

paper bag), aff'd, 359 N.C. 800, 617 S.E.2d 271 (2005).

indictment, it is the court’s duty to submit the case to the

But see Nettles, 170 N.C. App. at 106, 612 S.E.2d at 176

jury.” (citation and quotation marks omitted)), aff'd,i 26 N.C.

(possession of 1.2 grams of cocaine was insufficient to infer
intent to sell or distribute); State v: Battle, 167 N.C. App.

777, 392 S.E.2d 391 (1990;.

730. 733. 606 S.E.2d 418, 421 (2005) (possession of 1.9
Here, the evidence reveals Defendant was in possession

grams of cocaine was insufficient to infer intent to sell or

of cocaine contained in two packages: a comer bag

distribute); State r Turner, 168 N.C. App. 152, 154, 158-59,

containing .34 grams and a package containing 11.19 grams.

607 S.E.2d 19. 21, 23-24 (2005) (evidence of ten rocks of

“Although quantity of the controlled substance alone may

cocaine in a tube weighing a total of 4.8 grams valued at

suffice to support the inference of an intent to transfer,

approximately S I 50.00 to $200.00 was insufficient, standing

sell, or deliver, it must be a substantia! amount.” Nettles.

alone, to support PWISD conviction); In re I.R.T., 184 N.C.

170 N.C. App. at 105, 612 S.E.2d at 176 (citation and

App. 579. 588. 647 S.E.2d 129. 137 (2007) (a single rock

quotation marks omitted). This Court has previously held “a

of crack cocaine wrapped in cellophane as well as $271.00

controlled substance’s substantial amount may be determined

in cash on juvenile’s person were insufficient to support

by comparing the amount possessed to the amount necessary

adjudication for PWISD).

W€STtAW

€12020 Yhoms''n Reuters, hie cteirn

origins) ll S. Gov^nnntni VvcKks.

o

State v, Wilson, — S.£.2d — (2020)

......"A£P,.4.::.

*4 Assuming, without deciding, the amount of cocaine in
Defendant’s possession in this case was not such a substantial
amount standing alone to support an inference of Defendant’s
intent to sell or deliver, the amount of cocaine possessed by
Defendant remains a significant amount and much more titan
has been typically recognized as for personal use. Thus, in
weighing the totality of the circumstances in this case, the
evidence Defendant possessed over 11 grams of cocaine is
nevertheless an important circumstance.
Moreover, evidence of the packaging also supports an
inference of intent to sell or deliver. Tire evidence reflected
the cocaine was divided into two packages: one smaller
corner bag indicative of packaging for personal use and the
larger package containing the bulk (over 1! grams) of the
cocaine. Defendant’s actions further support an inference
of an intent to sell arid distribute. Defendant was driving
(and thus transporting the cocaine) to his brother’s apartment
complex. Defendant failed to stop (or Officer Moore and,
indeed, accelerated away from him, only stopping once he
reached the apartment complex. Defendant got out of his
car, refused to comply with Officer Moore's directions, and
instead ducked behind the other parked car where the larger
bag of cocaine was later found. Thus, the evidence supports
an inference Defendant attempted to hide the larger amount
of cocaine while leaving the smaller corner hag—associated
with only persona! use—in plain view.

or additional baggies or containers—which have otherwise
generally supported a conviction for PW1SD. However, when
viewed in its entirety, the amount of cocaine, the packaging
divided into a personal-use size and a much larger package,
and Defendant’s evasive behavior and attempts to secrete
the larger bag establish, at a minimum, a borderline case to
support submission of the PWfSD-Cocaine charge to the jury
by providing ‘more than a scintilla of competent evidence to
support [the] allegations in the ... indictment”; therefore, “it
[was] the [trial] court’s duty to submit the case to the jury.”
Ever.hard!, 96 N.C. App.-ai 11, 384 S.E.2d at 568 (citation
and quotation marks omitted). Accordingly, we hold the trial
court did not err in denying Defendant’s motions to dismiss.

Conclusion
For the foregoing reasons, we conclude there was no error
in the denial of Defendant’s motions to dismiss and in the
submission of the PWISD-Cocaine charge to the jury.
NO ERROR.

Judges ZACHARY and ARROWOOD concur.
All Citations
— S.E.2d —2020 WL 543423

We acknowledge there is no evidence of any cash, other
drug paraphernalia, or tools of the drug trade—such as scales

Footnotes

1

Defendant does not challenge his separate conviction for Felony Possession of Cocaine. Defendant also raises no
independent challenge to his conviction of attaining Habitual-Felon status. Accordingly, we do not address those
convictions on appeal.

2

In particular, Defendant does not argue there was insufficient evidence he actually or constructively possessed either the
smaller bag of cocaine found in his car or the larger bag found in the parking space where the other car had been parked.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

W1STIAW <g> 2020 Thomson Reuters No claim to original I OS. Government Wa<ks.

4

No. 103P20

TWENTY-EIGHTH DISTRICT

Supreme Court of J^ortf) Carolina
STATE OF NORTH CAROLINA
v
REGINALD TREMAINE WILSON

From N.C. Court of Appeals
( 19-184 )
From Buncombe
( 17CRS88785-86 18CRS101 )

ORDER

Upon, consideration
of the petition filed on the 6th of March 2020 by Defendant in this matter for discretionary
,
,
review of the decision of the North Carolina Court of Appeals pursuant to G.S. 7A-31, the following order was
entered and is hereby certified to the North Carolina Court of Appeals'
*
Denied by order of the Court in conference, this the 15th of December 2020."
s/ Davis, J.
For the Court
The following order has been entered on the motion filed on the 7th of May 2020 by Defendant to Amend
Petition for Discretionary Review:
"Motion Allowed by order of the Court in conference, this the 15th of December 2020."
s/ Davis, J.
For the Court

WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 23rd day of December
2020.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina
MV C. Hackney);
Assistant CletU Supreme Court Of North Carolina

G-o f

1\W-

■h> -

Cmv\>po,

,£ fypasfe

M i Wfc® a,r«e
**' _ L

^ ^ ^ vjJLf&jJk
■ *r^

^

(_ (^ g^,-1'

of jSsl&vf4rt^ C_£tsro \

WW. iooci oOtil'^vs, DisVo-f /fyf,

^V'TVey

(Llerj^
V/Wf 9«o to l ‘ 6(/u «a^_- C By 'ey*** 1 ^
\_-e^iS~ Vi-£yAS~

CBv|

